 DEPARTMENT OF HOMELAND SECURITY

      Office of Inspector General


      U.S. Citizenship and Immigration 

      Services’ Progress in Modernizing 

           Information Technology





OIG-07-11                      November 2006
                                                                       Office of Inspector General

                                                                       U.S. Department of Homeland Security
                                                                       Washington, DC 20528



                                                                      Homeland
                                                                      Security
                                      November 30, 2006

                                              Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, effectiveness, and efficiency within the department.

This report is the result of our follow-up review of the challenges that U.S. Citizenship and
Immigration Services (USCIS) faces in modernizing information technology (IT) to carry out its
immigration benefits processing responsibilities more effectively. The findings discussed in this
report are based on interviews with USCIS officials and employees, direct observations, and a
review of applicable documents.

It is our hope that this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.




                                              Richard L. Skinner 

                                              Inspector General 

Contents/Abbreviations 



    Executive Summary ....................................................................................................................... 1 


    Background .................................................................................................................................... 2 


    Results of Audit .............................................................................................................................. 3 


            Transformation Strategy Development Continues................................................................ 3 


            Challenges in Centralizing IT Resources............................................................................... 7 


            Ongoing Efforts to Link OCIO Objectives to the USCIS Strategy ..................................... 10 


            Process and Systems Improvements Underway .................................................................. 13 


            Infrastructure Upgrades Not Yet Completed as of September 2006 ................................... 16 


            Limited User Participation in Transformation Planning...................................................... 18 



Management Comments and OIG Evaluation ................................................................................... 21 


Appendices
    Appendix A:            Scope and Methodology..................................................................................... 25 

    Appendix B:            Management Response to Draft Report ...............................................................27 

    Appendix C:            Major Contributors to the Report ....................................................................... 30 

    Appendix D:            Report Distribution...............................................................................................31 


Abbreviations
    CIO             Chief Information Officer 

    DHS             Department of Homeland Security 

    GAO             Government Accountability Office 

    IT              Information Technology           

    ITIL            Information Technology Infrastructure Library 

    OCIO            Office of the Chief Information Officer 

    OIG             Office of Inspector General 

    TPO             Transformation Program Office 

    USCIS           U.S. Citizenship and Immigration Services 





           U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology
Contents/Abbreviations 


Figures
  Figure 1   USCIS Transformation Progress Since September 2005 OIG Report ….…….…..4

  Figure 2   USCIS Modernization Initiatives Since Joining DHS…………………………….5

  Figure 3   USCIS Infrastructure Upgrades Completed.……………………………………..17

  Figure 4   Planned Outreach Activities.……………………………………………………. 19




      U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology
Executive Summary
                   Effective use of IT, coupled with updated processes, is vital to increase
                   efficiency and address demands in immigration benefits processing. In our
                   September 2005 report, USCIS Faces Challenges in Modernizing Information
                   Technology (DHS-OIG-05-41), we identified inefficiencies in USCIS’
                   operational environment and an unfocused approach to improving processes
                   and systems in order to provide citizenship and immigration services more
                   effectively. In the report, we recommended a number of actions that USCIS
                   can take to leverage IT to achieve its modernization objectives. Such actions
                   also will be critical to support potential increases in benefits processing
                   workloads that could result from proposed immigration reform legislation.

                   As part of our responsibility for assessing the efficiency and effectiveness of
                   departmental operations, we conducted a review of USCIS’ efforts to improve
                   its processes and systems. The objectives of our review were to assess
                   progress in implementing IT modernization initiatives, as well as addressing
                   our prior recommendations. The scope and methodology of this audit are
                   discussed in Appendix A.

                   Although USCIS has taken steps to address the recommendations in our prior
                   report, several challenges continue. Specifically:

                   1. 	 Although USCIS has exhibited new commitment to business
                        transformation, the bureau faces challenges in finalizing its approach and
                        advancing to transformation implementation.
                   2. 	 USCIS has accomplished the first phase of its IT staffing integration
                        effort, however, remaining phases remain on hold until the bureau
                        addresses organizational deficiencies that hinder day-to-day IT operations.
                   3. 	 USCIS has made progress in applying IT to support mission business
                        operations, but improved strategic planning by the Office of the Chief
                        Information Officer (OCIO) could help in managing IT resources.
                   4. 	 Process engineering is contingent on implementing a “to-be” transaction-
                        based environment and a supporting acquisition approach.
                   5. 	 While significant progress in IT infrastructure upgrades has been made,
                        plans to complete remaining sites are on hold pending funding approval.
                   6. 	 USCIS has outlined strategies to increase stakeholder involvement in
                        transformation planning to promote buy-in and minimize risks that
                        redesigned processes and systems may not meet user needs.

                   Each of our prior report recommendations will remain open until additional
                   progress is demonstrated and updated information is provided for our review.



     U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                              Page 1
Background
                   Our September 2005 report discussed inefficiencies in USCIS’ IT
                   environment that hindered its ability to carry out its immigration benefits
                   processing mission successfully. Specifically, USCIS’ processes were largely
                   manual, paper-based, and duplicative, resulting in an ineffective use of human
                   and financial resources to ship, store, and track immigration files.
                   Adjudicators used multiple and non-integrated IT systems to perform their
                   jobs, which has reduced productivity and data integrity. IT software and
                   hardware systems also were not well configured to meet users needs.

                   Further, although federal guidelines require effective planning and
                   management of IT to increase efficiency of business operations, USCIS has
                   not had a focused approach for updating its legacy systems and manual
                   workflow practices. Rather, IT planning and implementation were conducted
                   in a reactive and decentralized manner across the organization. Additionally,
                   USCIS relied on personnel rather than technology to meet its backlog
                   reduction goals.

                   Based on these findings, we recommended that the Acting Deputy Director,
                   U.S. Citizenship and Immigration Services:

                   1. 	 Develop a modernization strategy that includes short- and long-term goals,
                        funding plans, and performance measures to guide USCIS entities in
                        accomplishing their citizenship and immigration services missions.
                   2. 	 Complete implementation of plans to centralize IT by placing all USCIS
                        IT employees, budgets, and systems under the Chief Information Officer's
                        (CIO) authority and control.
                   3. 	 Ensure that the centralized CIO operation and its IT transformation plans
                        and systems initiatives are linked to and effectively support the
                        consolidated USCIS strategy.
                   4. 	 Review, analyze, and reengineer benefits adjudication activities to help
                        eliminate duplication, transition from paper-based processes, better
                        integrate systems, and provide systems access to the users who need it.
                   5. 	 Finalize and implement plans to upgrade and standardize IT hardware and
                        software systems to support reengineered processes and systems
                        integration and access improvement initiatives.
                   6. 	 Ensure representation and participation of users at the various levels from
                        across USCIS in all process reengineering and IT transformation activities.

                   In December 2005 and May 2006, USCIS provided compliance updates,
                   including milestones and actions plans, for addressing our report
                   recommendations. Over the past year, the bureau has undergone several
                   leadership changes and made demonstrable progress toward achieving its

     U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                              Page 2
                          modernization goals. For example, the backlog reduction initiative that was a
                          focus for the bureau during our previous review concluded with USCIS
                          completing more than 70 percent of all previously backlogged cases by the
                          end of FY 2006. Now, the bureau faces large-scale immigration reform as
                          Congress debates pending legislation reform that could significantly affect
                          USCIS’ processes and workloads. Specifically, the House of Representatives
                          passed an immigration bill that focuses on strengthening the enforcement of
                          existing immigration law and enhancing border security.1 The Senate passed
                          a separate bill with provisions to create a guest worker program and a program
                          to legalize undocumented aliens.2

                          If enacted, this legislation could dramatically increase the number of
                          applicants for immigration benefits, also requiring improved biometrics
                          management, and new systems to track guest workers and their employment
                          eligibility. IT modernization will be vital for USCIS to meet these new
                          requirements and overcome its long standing challenges in achieving
                          operational efficiency.

Results of Audit

Transformation Strategy Development Continues
                          The Government Performance and Results Act of 1993 holds federal agencies
                          responsible for strategic planning to ensure efficient operations and effective
                          use of resources to achieve mission goals.3 However, at the time of our
                          September 2005 report, USCIS had not implemented a consolidated strategy
                          to move from its outdated, paper-based processes to a more efficient
                          electronic environment. Therefore, we recommended that:

                          USCIS develop a modernization strategy that includes short- and long-
                          term goals, funding plans, and performance measures to guide USCIS
                          entities in accomplishing their citizenship and immigration service
                          missions.

                          Since our previous report, USCIS has demonstrated progress through the
                          evolution of a bureau-wide, business-driven transformation program.
                          Finalizing and moving ahead with implementation of this transformation
                          program remains a challenge for the bureau nonetheless.


1
  Border Protection, Antiterrorism, and Illegal Immigration Reform Act of 2006, H.R. 4437, 109th Cong., 2nd Session

(2006) U.S. House of Representatives.

2
  Comprehensive Immigration Control Act of 2006, S. 2611, 109th Cong., 2nd Session (2006) U.S. Senate. 

3
  Government Performance and Results Act of 1993, Public Law 103-62, August 3, 1993. 


          U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                                       Page 3
Business Transformation Has Brought New Direction and Commitment
                    Over the past year, USCIS has made transformation a leadership-driven
                    priority. The bureau demonstrated progress by defining a solid mission,
                    vision, and supporting principles to guide process improvements and IT
                    modernization efforts. Senior leadership sign-off of these high level plans
                    underscores USCIS’ commitment to achieving business transformation
                    objectives.

                    USCIS’ establishment of its Transformation Program Office (TPO) in
                    November 2005 is a positive step toward modernization. The TPO provides
                    oversight of modernization activities as well as a centralized management
                    structure for coordinating transformation teams. In February 2006, the TPO
                    established a Governance Plan, which defines the office’s roles and
                    responsibilities, as well as the structure of the office and its sub-teams. A
                    corresponding Transformation Program Management Plan defines at a high
                    level the scope, tasks, milestones, and objectives of the transformation effort.
                    In May 2006, the Acting DHS Chief Financial Officer authorized $25 million
                    to complete the program planning phase. Subsequently, in June 2006, USCIS
                    submitted an “exhibit 300” business case to the Office of Management and
                    Budget, outlining the purpose, benefits, and justification for continued
                    transformation funding. The TPO drafted a concept of operations to help
                    validate its approach to instituting new business processes and systems. These
                    achievements, as well as additional key milestones, are summarized in the
                    chart below. (See Figure 1.)

                                                     USCIS Transformation Progress

                                            2005                                                         2006
                       Sep           Oct           Nov        Dec     Jan       Feb          Mar   Apr          Ma y      Jun          July        Aug



                                Phase 1 IT           Infrastructure                                                    New CIO
                               Centralization          Upgrades                                                        Appointed
                                Complete                 Began



                     Prior OIG Report                 Business                                     TPO $25 Million                 A-File Digitization
                         Released                  Transformation                                  Spending Plan                        Contract
                                                    Established                                      Approved                           Awarded


                                     IT                                     Transformation                         Transformation
                                Modernization                                Sub-Teams                               CONOPS
                                Discontinued                                   Created                              Established




                    Figure 1: USCIS Transformation Progress Since September 2005 OIG Report

                    Senior-level endorsements and communications to internal stakeholders are
                    expected to generate broad acceptance of transformation throughout the

      U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                                                Page 4
                    bureau. For example, the DHS Secretary’s “Second Stage Review,” providing
                    an assessment of the department’s organization structure, policies, and
                    operations in June 2006, discussed USCIS’ outdated IT environment and the
                    need for modernization. Further, numerous USCIS senior executives
                    compared the current business transformation with previous IT efforts,
                    indicating that program success is now more likely, given increased leadership
                    and support. For example, by designating transformation as a top priority, the
                    USCIS director has sought to heighten visibility and stakeholder support for
                    the program. Additionally, the director’s 100-day message and USCIS’
                    monthly newsletter have helped highlight transformation plans and activities.

Cycle of Continuous Planning
                    Despite the progress made in transformation planning, USCIS faces
                    challenges in finalizing its approach and advancing to the implementation
                    phase. Because of repeated changes in focus and direction, USCIS has tended
                    to duplicate previous modernization initiatives and has not demonstrated the
                    ability to execute its planned strategies. (See Figure 2). For example, the
                    current transformation approach replicates elements of the former USCIS
                    CIO's effort to modernize bureau technology. At the time of our September
                    2005 report, the OCIO had developed portions of a transformation strategy
                    under the title, “IT Modernization.” This CIO effort focused on replacing
                    legacy systems with a new case management system. In April 2005, the DHS
                    Joint Requirements Council approved the mission needs statement for the
                    CIO’s IT Modernization effort. However, in October 2005, USCIS
                    discontinued IT Modernization midstream, replacing it with the broader
                    Business Transformation Program. Although the ongoing transformation
                    effort focuses on upgrading technology to support business objectives, much
                    of the planning conducted under the former CIO’s IT Modernization initiative
                    remains underutilized. For example, as part of IT Modernization, USCIS
                    conducted a market study to identify procurement options and possible
                    vendors and produced a request for proposals. However, the current business
                    transformation program has begun a new market research effort to identify
                    leading practices and procurement options.

                                USCIS Modernization Initiatives Since Joining DHS
                                 Name                           Timeframe              Status
                    Business Transformation                  2005-Current         On-Going
                    IT Modernization                         2004-2005            Cancelled
                    Office of Services Modernization         2003-2005            Cancelled

                    Figure 2: USCIS Modernization Initiatives Since Joining DHS


      U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                                Page 5
                          Similarly, USCIS has repeatedly developed plans to pilot elements of the
                          transformation program, but has not fully implemented any of these plans.
                          For example, USCIS originally planned to pilot a new process for managing
                          H-1B visas in April 2006, with deployment potentially scheduled for October
                          2006.4 However, the director agreed to discontinue this pilot after the TPO
                          determined that the program was unlikely to succeed due to incomplete cost
                          estimates as well as procurement and timing risks. Likewise, in March 2006,
                          USCIS planned a pilot to test end-to-end electronic processing of a limited
                          sample of immigration benefits. USCIS planned to begin this pilot at 25 field
                          offices in its western region in May 2007, and then incrementally roll it out to
                          other locations nation-wide. Although USCIS presented this pilot to the DHS
                          Investment Review Board for approval, the TPO agreed to re-evaluate the
                          scope of the effort after conceding that it was ambitious and possibly needed
                          to be scaled down. As of September 2006, no other business transformation
                          pilots had been executed. By repeatedly revising and delaying
                          implementation of the pilots, USCIS may be losing momentum and user
                          confidence in its transformation approach.

                          Delays in completing the overarching plans and strategies to guide business
                          transformation have been a concern as well. Several key documents are
                          behind schedule; others, such as a risk management plan and a security plan,
                          have not been developed. More importantly, due to funding uncertainties,
                          USCIS postponed development of the overall transformation strategy from
                          July 2006 to September 2006. Consequently, the bureau has not defined its
                          short- and long-term transformation goals and associated milestones. Until
                          this strategy is outlined, USCIS may have limited ability to prioritize
                          activities, execute plans, or clearly align ongoing projects with overall
                          transformation objectives. Additionally, according to the 2007 Appropriation
                          Act, transformation funding may not be obligated until the Senate and the
                          House Committees receive and approve a USCIS transformation strategic plan
                          that has been approved by the Secretary of Homeland Security and reviewed
                          by the Government Accountability Office.5

                          USCIS’ unique funding structure poses major obstacles to transformation
                          planning. Because of the limitations imposed by its fee-based revenue, the
                          bureau continues to look for creative ways to augment appropriations for
                          enterprise-wide transformation. Although USCIS has begun to discuss
                          alternative funding strategies, the bureau has not defined an acceptable
                          acquisition approach to move forward. In July 2006, a contractor completed a
                          review of possible acquisition strategies and provided a wide range of cost
                          estimates, from $387 million to $1.4 billion. However, the contractor
4
  H-1B is a nonimmigrant classification for aliens who will be temporarily employed in specialty occupations, such as 

accounting, engineering, or law. 

5
  FY 2007 Homeland Security Appropriations Act, H.R. 5441, 109th Cong., 2nd Session (2006), Title IV. 


          U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                                         Page 6
                        concluded that USCIS must finalize its transformation requirements first in
                        order to obtain more accurate costs and risks.

                        This recommendation will remain open until USCIS finalizes its
                        transformation strategy, including short- and long-term goals, associated
                        milestones, relevant plans, and a funding and acquisition approach.


Challenges In Centralizing IT Resources
                        According to DHS Management Directive 0007, the CIO of each DHS
                        component is responsible for managing its IT budgets and resources.6 As we
                        reported in September 2005, although USCIS had taken some steps to place
                        major IT projects under the control of its CIO, the bureau continued to operate
                        with a decentralized IT management structure. Therefore, we recommended
                        that:

                        USCIS complete implementation of plans to centralize IT by placing all
                        IT employees, budgets, and systems under the CIO’s authority and
                        control.

                        Since our 2005 report, USCIS has made additional progress in realigning its
                        IT employees to report to the CIO. However, centralization of the remaining
                        IT employees, as well as IT assets and budgets, is on hold while
                        organizational improvements are made.

IT Realignment and Organizational Improvements
                        USCIS has made considerable progress in accomplishing the first phase of its
                        IT staff integration effort. In October 2005, USCIS transferred 90 technical
                        positions and administrative staff from its four service centers, the National
                        Records Center, and the National Benefits Center to report to the bureau CIO.
                        This initial realignment has yielded a number of benefits to IT personnel. For
                        example, a number of IT staff in field locations said that they now have
                        greater awareness of OCIO operations and activities. Increased use of
                        teleconferences, emails, and working groups has helped unify IT staff across
                        headquarters and field locations. To illustrate, the OCIO now holds weekly
                        conference calls with its IT field area directors to improve communications
                        and coordination.

                        Additional realignments of IT assets are planned for FY 2007, pending
                        completion of related organizational improvements currently underway.
6
 Information Technology Integration and Management, Department of Homeland Security Management Directive
System, MD Number 0007, October 14, 2004.

         U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                                   Page 7
                    Specifically, USCIS recently hired a new CIO to restructure the IT
                    organization and implement a number of initiatives to address internal control
                    deficiencies identified in its FY 2006 self-assessment. According to the study,
                    OCIO met fewer than 10 percent of the internal control standards established
                    by the Government Accountability Office to measure operational
                    performance. The most significant weakness was a lack of permanent OCIO
                    staff to manage and deliver IT services in support of the USCIS mission.
                    Additional deficiencies involved strategic planning, IT security, program and
                    contractor oversight, communications, training, and performance
                    management.

                    To address these deficiencies, the new CIO has made organizational
                    restructuring—particularly in the areas of IT security, enterprise architecture
                    planning, and IT service management—a top priority. In July 2006, the CIO
                    released a request for quotations to acquire IT consulting assistance for this
                    restructuring effort, as well as to adopt leading practices in IT service
                    delivery. Instituting the “IT Infrastructure Library” (ITIL), a federal
                    framework for IT service management, is one such leading practice. USCIS
                    plans to identify the new OCIO structure and fully define supporting IT
                    business processes and internal controls in October 2006.

                    To address the IT staff shortages, the OCIO developed a recruiting plan to fill
                    key positions, starting with IT security. Since July 2006, the OCIO also
                    worked to reduce the number of contractor positions performing inherently
                    government functions. These staffing improvements are to increase the
                    OCIO’s ability to accomplish its mission with a permanent workforce and
                    adequate contractor oversight. In the long run, such reductions also are
                    expected to result in a more balanced mix of government and contractor
                    employees, as well as cost savings.

                    Other OCIO improvements underway include heightened focus on improving
                    employee and project management practices. For example, in July 2006, the
                    office developed a new CIO newsletter, “More About the OCIO,” which will
                    be issued on a regular basis. The newsletter will provide up-to-date
                    information about key projects, workforce changes, and other issues of
                    concern to the CIO. Training also is underway for IT project managers, as a
                    means of standardizing their management practices and improving their skills.

Continuing IT Management Difficulties
                    Although the OCIO organizational improvements constitute positive steps
                    forward, a number of challenges hinder day-to-day operations. For example,
                    USCIS placed the remaining consolidations of IT staff from organizations
                    such as district offices and asylum offices on hold while the organizational

      U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                               Page 8
              improvements are underway. According to the OCIO’s FY 2006 self-
              assessment and a number of employees that we interviewed, IT field staff not
              yet realigned to report to the CIO continue to perform various services and
              functions in a decentralized manner.

              For example, in the absence of OCIO guidance on system life cycle
              management, field IT staff continue to develop non-standard systems that may
              not integrate with the enterprise-wide infrastructure. This proliferation of
              non-standard systems has created a number of concerns for the OCIO. For
              example, after recently beginning efforts to upgrade its field offices to
              Windows XP, USCIS found that a number of locally developed applications
              were not compatible with the new MS Office operating system. According to
              a USCIS Corrective Action Plan and Milestones developed in response to our
              previous report, the OCIO is building a systems inventory to help identify and
              eliminate applications developed in field offices outside of its control.

              Further, IT employees who have already moved to the OCIO lack adequate
              support in some areas. According to several field IT staff, the OCIO has not
              provided adequate guidance or sufficiently addressed their basic
              administrative needs since realignment. They said that the OCIO also has not
              defined clearly the processes and reporting structure for personnel, training,
              and budget management. For example, several employees recalled having to
              fax their leave requests to several different contacts at headquarters numerous
              times to obtain the required approvals. In addition, one field official had
              difficulty getting funding for basic expenses such as local travel, overtime,
              and postage.

              Historical concerns regarding OCIO budget management and spending
              practices have resulted in increased USCIS oversight of the office’s IT
              spending. USCIS employs a range of internal controls to review and approve
              spending. Although the OCIO budget is mainly used for operations and
              maintenance of existing systems, additional IT expenses are subject to these
              overarching internal control processes, which involve review and approval by
              business and IT representatives from across the bureau.

              However, many OCIO personnel expressed concerns about a lack of IT
              representation in the investment management decision-making. USCIS
              officials stated that business representatives also are too heavily involved in
              system and infrastructure change decisions that require considerable technical
              knowledge and expertise. For example, one IT official described the
              oversight process as “broken,” citing an instance in which OCIO presented a
              clear case to a senior review board for potential cost savings through network
              enhancements. However, one business member repeatedly voted against the
              IT proposal, effectively killing the program when consensus approval could

U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                         Page 9
                         not be achieved. The IT official concluded that not having the right mix of
                         business and technical representation may lead to ineffective IT decisions.

                         This recommendation will remain open until USCIS addresses its
                         organizational deficiencies and makes demonstrable progress in centralizing
                         its IT resources.


Ongoing Efforts to Link OCIO Objectives to the USCIS Strategy

                         According to the Office of Management and Budget, an agency’s IT plan
                         should support its strategic plan and should describe how information
                         resources will be used to help accomplish the agency’s mission.7 Although
                         centralized IT is key to executing this planning guidance, we reported in
                         September 2005 that USCIS’ IT programs and services were neither centrally
                         nor strategically managed. Instead, IT initiatives were planned and
                         implemented in an ad hoc manner to respond to immediate needs.
                         Accordingly, we recommended that:

                         USCIS ensure that the centralized CIO operation and its IT
                         transformation plans and systems initiatives are linked to and effectively
                         support the consolidated USCIS strategy.

                         In recent months, USCIS has taken steps to strategically align its business
                         transformation program objectives with the overarching DHS strategy. OCIO
                         efforts also are underway to strengthen investment management controls and
                         enhance coordination between business and IT organizations. However,
                         OCIO has not clearly linked its IT objectives and initiatives with USCIS goals
                         to ensure that technical solutions and services meet bureau needs effectively.

Progress in Applying IT to Support Mission Business
                         The TPO linked the business transformation program both with the DHS and
                         the USCIS strategic plans. For example, the TPO has taken steps to ensure
                         that its Transformation Program Management Plan supports key mission
                         themes, including prevention, service, and organizational excellence, outlined
                         in the DHS strategic plan. Additionally, four priorities outlined in the USCIS
                         strategic plan are included in the Transformation Program Governance Plan.
                         The four priorities are providing accurate and useful information to customers,
                         granting immigration and citizenship benefits, promoting awareness and


7
 Management of Federal Information Resources, Revision of Management and Budget Circular A-130, Transmittal 2,
July 15, 1994.

         U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                                    Page 10
              understanding of citizenship, and ensuring the integrity of the immigration
              system.

              Further, USCIS strengthened its investment management review processes to
              better ensure that programs and initiatives align with the bureau’s strategy.
              Specifically, in October 2005, USCIS instituted a bureau-wide governance
              structure, consisting of at least four review boards responsible for reviewing
              and approving investments to meet agency business needs. Investments are
              identified for review based on a range of criteria, including cost, technical
              impact, and mission priority or criticality. Currently, these boards constitute
              the foremost means of overseeing management and spending related to both
              IT and non-IT initiatives. As previously discussed, although USCIS intends
              the various boards to have crosscutting leadership, most representatives are
              from business rather than technical bureau components, resulting in
              inadequate IT expertise to make key systems decisions.

              Over the past year, USCIS has sought ways to better coordinate and align
              business and IT initiatives. According to its FY 2006 internal controls self-
              assessment, the OCIO does not effectively communicate with system owners
              to determine how IT can be applied to support business needs. A number of
              IT leaders said that this gap is the result of poor communication between IT
              managers and line of business representatives. USCIS has instituted a number
              of mechanisms to increase coordination and foster more productive working
              relationships. For example, the USCIS Chief of Staff recently began hosting
              weekly meetings to bring together IT and business representatives to discuss
              project milestones, progress, and cost issues. According to one senior USCIS
              official, the meetings have helped IT and business leaders understand each
              other’s roles better and they now are making progress toward achieving
              common goals.

              Further, OCIO improved its technical services and support for business
              operations. In June 2006, OCIO created a new staff position with
              responsibility for building IT strategic planning and financial management
              capabilities, such as earned value management and cost estimating. The
              incumbent has been helpful in instituting new OCIO processes, policies, and
              standards, such as the previously mentioned ITIL framework for IT service
              management. A number of senior officials expect that these improvements
              will support development of the OCIO budget in alignment with the bureau’s
              strategic objectives. Additionally, OCIO has organized much needed training
              to improve program and project management, as well as financial planning.
              Once implemented, these efforts are expected to enhance technical services
              and management capabilities and help OCIO better monitor and control IT
              programs and operations.


U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                        Page 11
Improved IT Management and Tools Are Needed
                    Despite the steps taken to align IT and the business, IT strategic planning
                    within the OCIO could be improved. Specifically, a prior CIO developed the
                    existing five-year IT strategic plan in July 2004. Some believed that the
                    existing plan is not fully effective, characterizing it as more of a general, high
                    level business plan than an executable IT strategy. Officials also said that the
                    transformation program does not include measurable performance goals. As
                    such, a number of USCIS personnel concluded that OCIO needs to start over
                    and develop a new IT strategic plan that reflects current priorities. Such a
                    strategy, along with performance goals and measures, would provide more
                    actionable guidance for meeting Office of Management and Budget planning
                    requirements and supporting DHS and USCIS mission goals.

                    Further, the CIO does not have central authority to budget, track, or link all IT
                    expenditures to USCIS mission objectives. Rather, the CIO relies upon
                    informal and inconsistent mechanisms to prioritize and help manage IT
                    programs and initiatives. One of the few methods available to align proposed
                    investments with the bureau strategy is through the Office of Management and
                    Budget’s “exhibit 300” process. However, this practice is insufficient because
                    it depends on each program manager’s individual, subjective assessment of
                    how a proposed initiative will support mission goals. This practice also does
                    not assist in centrally prioritizing or categorizing programs in line with
                    mission critical needs. One senior IT manager characterized this OCIO
                    environment as a reactive one in which IT solutions are implemented in an ad
                    hoc manner to meet pressing business needs. Once initiatives are underway,
                    there also are no standards for project planning or budgeting. Because OCIO
                    project management skills and automated project tracking and reporting tools
                    are lacking, IT project plans do not include detailed cost data consistently,
                    hindering OCIO ability to perform cost or trend analysis for projects over
                    time.

                    The lack of a mature enterprise architecture to help standardize and align
                    technology with business functions contributes to this decentralized IT
                    environment. USCIS recognizes that an enterprise architecture is critical to
                    support business transformation, as well as IT management. USCIS has
                    established a team to develop such a framework, following Federal Enterprise
                    Architecture guidelines. According to TPO officials, this approach will
                    facilitate early definition of business outcomes, metrics, and processes,
                    followed by development of technical solutions. However, there are
                    significant obstacles to architecture development. Specifically, due to a
                    shortage of OCIO personnel, the development effort is not fully staffed and
                    each of the five architecture reference models is in varying stages of
                    development.

      U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                              Page 12
                         This recommendation will remain open until USCIS updates its IT strategic
                         plan, centralizes management of its IT expenditures, and applies its enterprise
                         architecture to ensure linkages between its transformation strategy and IT
                         initiatives.

Process and Systems Improvements Underway
                         According to the Paperwork Reduction Act of 1995 and the Clinger-Cohen
                         Act, agencies are required to acquire, manage, and use IT to improve mission
                         performance. 8 However, as we reported in September 2005, USCIS faces
                         significant challenges due to inefficient paper-based processes, non-integrated
                         information systems, and inadequate systems access for users. To address
                         these challenges, we recommended that:

                         USCIS review, analyze, and reengineer benefits adjudication activities to
                         help eliminate duplication, transition from paper-based processes, better
                         integrate systems, and provide systems access to the users who need it.

                         In line with our recommendation, USCIS has taken initial steps towards a top-
                         down review of its current immigration benefits processing activities to
                         support the ongoing transformation effort. However, implementing re-
                         engineered business processes is contingent upon first defining a “to be”
                         transaction-based environment and a supporting acquisition approach. Until
                         this is accomplished, the bureau will remain burdened with limited
                         information management capabilities and lengthy forms-driven adjudication
                         processes.

Developing a Framework for Process and Systems Improvements
                         Over the past year, USCIS has taken steps to build a framework for business
                         process improvement. For example, as previously stated, in June 2006,
                         USCIS completed a concept of operations for moving from the current forms-
                         based adjudication environment to a transaction-based approach. TPO
                         leadership subsequently circulated the completed draft to selected leaders,
                         field transformation contacts, and external agencies to solicit feedback and
                         comments. According to a USCIS official, distribution of the draft document
                         also served to improve communication between IT and the business regarding
                         new processes and technology in the transformed business environment.



8
 Paperwork Reduction Act of 1995, Public Law 104-13, May 22, 1995; and the Clinger-Cohen Act (formerly the
Information Technology Management Reform Act of 1996), Public Law 104-106, Division E, February 10, 1996.

          U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                                     Page 13
                    Over the past six months, USCIS has mobilized a transformation team to
                    begin process improvement efforts. For example, an integrated design team
                    has begun drafting high level process designs for streamlining adjudication
                    activities, as well as developing business rules and electronic designs for all
                    types of transaction-based forms. Additional work has included identifying
                    ways to ensure that data elements will be accurately and efficiently captured
                    during the conversion from paper-based to electronic forms. Although
                    preliminary, these efforts illustrate USCIS’ commitment to enabling electronic
                    forms intake in an automated environment.

                    Further, USCIS is planning a number of short-term initiatives to support
                    transformation objectives, including electronic records management and
                    systems integration. For example, a Biometric Storage System planned for
                    development in FY 2007 is intended to store and manage personal
                    identification data, such as fingerprints. The system will use enumeration—a
                    process whereby each applicant is assigned a unique numeric identifier—to
                    capture each customer’s identity. USCIS will use encryption to ensure secure
                    electronic transmittal of the biometric data. Additionally, USCIS awarded a
                    contract in July 2006 for the creation, standardization, and implementation of
                    digitized technology for electronic management of millions of A-files. The
                    first million A-files are scheduled for digitization within 12 months of project
                    initiation. The results of this effort will be pivotal to transformation, ensuring
                    real-time accessibility of files across USCIS locations and, ultimately, more
                    timely customer service.

                    Similarly, USCIS’ “Enterprise Services Bus” is a project to improve data
                    sharing by tying existing legacy systems together using middleware—a type
                    of software that connects two or more applications so that they can exchange
                    data. This initiative will allow adjudicators to easily view and use information
                    from disparate systems to process related benefits applications in a timely
                    manner. Further, OCIO is building a data dictionary to standardize definition
                    and representation of data elements, such as A-file numbers, across USCIS
                    systems. Development of a logical data model will improve data integration
                    and exchange, both within the bureau and with external stakeholders.

Unclear Progress in Process Reengineering and Systems Integration
                    Despite these various process and systems initiatives, USCIS progress in
                    improving its benefits adjudication processes is unclear. Over the past several
                    years, USCIS repeatedly began business process reengineering initiatives that
                    never fully delivered results as promised. This situation continues today,
                    resulting in employee confusion about progress made, as well as apprehension
                    concerning bureau plans for future improvements. Some employees are
                    uncertain as to whether business process redesign has begun; others believe

      U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                              Page 14
              that the effort has been completed already. In reality, a TPO team drafted “to
              be” business process redesigns in December 2005, but has not done much
              beyond this preliminary planning. Formal process reengineering is not
              scheduled to resume until the next phase of transformation, after the
              supporting funding and acquisition strategy have been determined.

              Similarly, there have been inconsistent reports regarding progress in gathering
              business and technical requirements to support transformation. Although
              several USCIS personnel believe that requirements gathering has not yet
              started, we became aware of at least one USCIS effort to gather stakeholder
              and user requirements during transformation planning. Specifically, in
              December 2005, USCIS held a “Joint Application Development” session
              involving business representatives at headquarters to identify requirements for
              building systems to initially support an April 2006 H-1B visa processing pilot.
              USCIS planned to extend these systems after the test to other benefits
              processing activities. Although a follow-on session was scheduled for later
              that month, it never took place and no other requirements gathering sessions
              have been conducted for this effort. It is unclear how the outcomes from the
              initial session have been used to support transformation planning. As a result
              of such confusion, several IT personnel have expressed doubt that USCIS
              headquarters can conduct enterprise-level requirements gathering successfully
              to produce meaningful results.

              Further, because of the delays in business process redesign, as well as in
              identifying a viable acquisition approach, development of technical solutions
              to support business transformation has not started yet. According to a number
              of USCIS personnel, technical solutions are critically needed to replace the
              complex, non-integrated, and outdated legacy systems environment. A robust
              case management system is a principal tool needed to ensure USCIS systems
              integration and transaction-based adjudication. Although USCIS initially
              planned to implement some case management system capabilities by October
              2006, this pilot has been postponed until completion of the business process
              redesign needed to guide system development. According to USCIS officials,
              the bureau used over half of the $25 million planned for developing basic case
              management capabilities to develop IT solutions, with the remaining funds
              applied to business requirements development, project management support,
              and transformation program planning.

              Moving ahead with business process reengineering and systems integration is
              critical to manage existing immigration benefits processing workloads
              effectively. Given possible enactment of recently proposed immigration
              reform legislation that could rapidly increase benefits processing workloads,
              demonstrable progress in this area is particularly imperative. In anticipation
              of the reform legislation, USCIS is preparing to institute a congressionally

U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                        Page 15
                           proposed Temporary Worker Program, which would allow millions of
                           undocumented immigrants to become eligible for legal employment in the
                           United States. Preparations for managing this influx have included convening
                           working groups to assess technical capabilities and processing readiness, as
                           well as developing contingency plans for swift implementation of the program
                           should it become law. Like our review, these preliminary USCIS assessments
                           and plans have determined that the bureau currently lacks the processing
                           capacity, systems integration, and project management resources needed to
                           manage a potential increase in workloads.

                           This recommendation will remain open until USCIS demonstrates progress in
                           process reengineering and transitions to an electronic adjudication
                           environment, with successful implementation of an end-to-end business
                           processing pilot test.

Infrastructure Upgrades Not Yet Completed as of September 2006
                           The Paperwork Reduction Act of 1995 requires that agencies apply IT to
                           increase the efficiency and effectiveness of their business operations.9 In
                           September 2005, we reported that USCIS’ IT infrastructure was outdated and
                           unstable, hindering the ability of USCIS employees to carry out their work
                           effectively. With the last major IT upgrade completed over 10 years ago, we
                           concluded that the bureau needed an updated infrastructure to increase
                           operational efficiency and productivity. As such, we recommended that:

                           USCIS finalize and implement plans to upgrade and standardize IT
                           hardware and software systems to support reengineered processes and
                           systems integration and access improvement initiatives.

                           USCIS has made significant improvements by completing infrastructure
                           upgrades at key field locations. However, IT upgrades at the remaining sites
                           are uncertain due to budget constraints. Accomplishing such IT
                           modernization activities will be necessary to prepare for potential increase in
                           workload and technical requirements that could result from proposed
                           immigration reform legislation.

Upgrades Completed at Key Sites
                           USCIS has made substantial progress in completing hardware and software
                           upgrades at a number of high priority sites. (See Figure 3.) Specifically, as
                           previously stated, as of September 2006, USCIS had successfully upgraded
                           the IT infrastructure at all four service centers, the National Benefits Center,

9
    Paperwork Reduction Act of 1995, Public Law 104-13, May 22, 1995.

            U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                                       Page 16
              the Administrative Appeals Office, and selected eastern region field offices.
              The cost to upgrade the service centers and portions of the Eastern Regional
              Office alone was about $39 million. The upgrades delivered to each site
              included desktop computers, monitors, printers, and scanners, as well as
              newer software and network components. This new equipment affects a
              considerable portion of the bureau’s workload, since the four service centers
              process approximately 65 percent of the total applications that USCIS
              receives.




              Figure 3: USCIS Infrastructure Upgrades Completed as of September 2006

              A key benefit of these upgrades has been a standard desktop configuration to
              ensure consistent IT capabilities bureau-wide. The updated infrastructure also
              provides a more stable IT environment, which will increase productivity and
              provide a foundation for business transformation. For example, upgrading
              workstations from Windows 95 to Windows XP provides users greater
              capability, faster system performance, and a solid platform in line with the
              current industry standard. The upgrades also will support deployment of the
              advanced technology tools needed to manage digitized case files and support
              electronic processing. Additionally, OCIO hopes to use the upgrade process
              as an opportunity to institute asset tracking to better manage workstation
              inventories.

              These initial IT upgrades have met with widespread user approval. Managers,
              employees, and contractors both at headquarters and in the field consider the
              upgrades great progress and a good indication that transformation is
              achievable. Repeatedly, field office personnel told us that the upgrades were
              well managed and executed. They also appreciated OCIO performing the new

U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                         Page 17
                          equipment installations outside of normal business hours to minimize
                          interruptions to their daily work.

Funding Approval Needed for the Remaining Upgrades
                          USCIS still awaits budgetary approval to move ahead with deployment of new
                          equipment to hundreds of other field locations. USCIS estimates that the
                          additional cost to upgrade the remaining domestic field sites will be
                          approximately $72 million. However, as of September 2006, the next
                          installment of funding for the remaining locations had not been confirmed yet
                          and corresponding deployment schedules were uncertain. Until all the
                          upgrades are completed, USCIS offices will continue to experience limited
                          productivity, service disruptions, and increased maintenance costs to support
                          the outdated infrastructure.

                          This recommendation will remain open until USCIS demonstrates that it has
                          funding and a schedule in place to complete infrastructure upgrades at the
                          remaining sites.

Limited User Participation in Transformation Planning
                          Office of Management and Budget Circular A-11 directs agencies to reduce
                          project risk by involving stakeholders in the design of IT assets.10 However,
                          according to our September 2005 report, several major system development
                          efforts did not include adequate user input, causing employees to create
                          workarounds or in-house applications to meet their needs. To increase
                          stakeholder commitment to modernization initiatives, we recommended that:

                          USCIS ensure representation and participation of users at the various
                          levels from across the bureau in all process reengineering and IT
                          transformation activities.

                          Over the past year, USCIS outlined several strategies for increasing
                          stakeholder involvement in its transformation planning efforts. USCIS
                          expects that such strategies will help promote buy-in and minimize the risk
                          that redesigned processes, systems, and IT services may not meet user needs.

Approach to Improving User Participation and Outreach
                          Since our September 2005 report, USCIS outlined plans for generating broad
                          stakeholder support for transformation activities. USCIS leadership has made

10
  Circular A-11, Part 7, Planning, Budgeting, Acquisition, and Management of Capital Assets, Executive Office of the
President, Office of Management and Budget, June 2006.

          U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                                       Page 18
              business transformation a top priority. As such, according to a TPO official,
              USCIS leadership now is committed to investing time and money to ensure
              that the organization is well-prepared and educated to operate with the new
              processes, systems, and tools that will be deployed bureau-wide. The TPO
              has organized several transformation sub-teams, comprised of subject matter
              experts from across the organization, to help promote awareness, validate
              business and technical requirements, redesign processes, and communicate
              information on transformation progress. An April 2006 Transformation
              Change Management and Communications Plan outlines the TPO’s strategy
              for leveraging these sub-teams to improve outreach to users bureau-wide.
              Figure 4 outlines a number of outreach activities that the Transformation
              Change Management sub-team has planned to promote bureau-wide
              awareness and buy-in to the transformation program.

                           TRANSFORMATION CHANGE MANAGEMENT
                                  PLANNED OUTREACH ACTIVITIES
                • 	 Establish a collaboration site on the   •   Leverage traditional 

                    DHS network 
                               communication vehicles (i.e.,
                • 	 Map external stakeholders                   intranet, internet, and newsletters)

                • 	 Benchmark similar efforts               • 	 Conduct site visits to targeted
                                                                offices
                • 	 Involve union representation
                                                            • 	 Establish points of contact across
                                                                USCIS organizations

              Figure 4: Planned Outreach Activities

              For the most part, these outreach activities remain in the planning phase and
              have not been executed yet. However, USCIS' strategy for conducting site
              visits, a key element of the outreach approach, has already been finalized.
              Although USCIS originally planned to begin the site visits in June 2006,
              travel was delayed until August 2006 due to funding constraints and the need
              to finalize details related to the visits. The change management team plans to
              continue the site visits to more than 25 offices across all USCIS regions in fall
              2006. The TPO expects to use these visits to provide a transformation
              overview, conduct focus groups, and interview field leadership regarding their
              business needs.

              Similarly, the TPO has sought new ways to involve users, working in their
              remote field office locations instead of at headquarters, in transformation
              activities. For example, the TPO identified points of contact in USCIS field
              locations to periodically disseminate information on transformation efforts to
              colleagues in their regions. The TPO also plans to implement a “charter
              office” concept whereby the TPO, with the help of local users, will conduct

U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                          Page 19
                    transformation activities such as requirements gathering and process redesign
                    at selected field locations. These will be the primary methods for targeting
                    experts outside of headquarters, who understand business requirements and
                    expected outcomes, to assist in redesigning processes and developing IT
                    solutions to support transformation.

Limited Stakeholder Involvement and Communication
                    USCIS expects that its plans for increasing user involvement in transformation
                    activities will reverse problems with limited awareness and commitment to
                    transformation objectives. Up until now, transformation efforts have largely
                    been confined to selected team members at headquarters. Instead of soliciting
                    broad-based input, USCIS structured opportunities for user feedback and
                    participation around a few specific transformation activities. For example,
                    during planning for the H-1B visa pilot, the TPO conducted requirements
                    gathering with a small number of users, primarily at the Vermont Service
                    Center. After discontinuing this pilot, the TPO did not advise participants of
                    this decision or of future pilot plans. Further, the Integrated Design Team had
                    limited user input in documenting transformation process designs. Users at
                    one field office stated that they have witnessed a number of local business
                    process reengineering efforts, but none at a national level. Without adequate
                    input or participation from a range of users, USCIS may develop
                    transformation solutions that may not meet user needs.

                    As a result of its lack of participation, OCIO awareness and commitment to
                    business transformation has waned. The OCIO has not been consistently
                    involved over the past year as the initial IT modernization program shifted to
                    a more business-driven effort. The prior CIO who began the previous IT
                    modernization was not involved in business transformation. OCIO has had
                    only one full-time representative involved in transformation activities: A
                    detailee from a field location, assigned to the Technology Solution Team.
                    This team had limited involvement in transformation from the outset, as the
                    requirements it needed to support its systems design activities had not been
                    gathered. The team ultimately lost resources and discontinued its work due to
                    funding cuts. Additional OCIO involvement in transformation generally has
                    been limited to IT project managers working on related efforts, such as
                    infrastructure upgrades and data integration. Since joining USCIS in June
                    2006, the new CIO has taken steps to assist with transformation activities,
                    such as enterprise architecture planning and technical systems design;
                    however, the role that this official ultimately will play in transformation has
                    not been determined.

                    This recommendation will remain open until USCIS makes additional
                    progress in ensuring representation and participation of users at various levels

      U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                              Page 20
                   from across USCIS in business process reengineering and IT transformation
                   activities.

Conclusion
                   USCIS recognizes the unique challenges it faces to reengineer business
                   processes and modernize technology to better accomplish mission objectives.
                   Over the past year, the bureau has undertaken a structured approach to
                   addressing these challenges through its business transformation program.
                   With this program, the bureau has established cross-functional teams with
                   dedicated management participation and generated several strategic level
                   plans, which provide a business-centric vision and guidance for implementing
                   technical solutions. The accomplishments to date are steps in the right
                   direction for both business and IT modernization. However, USCIS remains
                   entrenched in a cycle of continual planning, with limited progress toward
                   achieving its long-term transformation goals.

                   Overcoming hindrances to moving from planning to implementation is critical
                   to addressing longstanding USCIS process and systems issues and realizing a
                   more effective benefits processing environment. Specifically, obtaining the
                   funding needed to support implementation of the business transformation
                   program is a continual concern. Establishing a clearly defined transformation
                   strategy, including the funding plans, goals, and performance measures
                   needed to manage its execution, is fundamental. Linking IT objectives to this
                   transformation strategy and ensuring sufficient internal and external
                   stakeholder involvement in IT and process improvement initiatives also will
                   be key. Until USCIS addresses these issues, the bureau will not be in a
                   position to either effectively manage existing workloads or handle the
                   potentially dramatic increase in immigration benefits processing workloads
                   that could result from proposed immigration reform legislation.

Management Comments and OIG Evaluation
                   We obtained written comments on a draft of this report from the Deputy
                   Director, U.S. Citizenship and Immigration Services. We have included a
                   copy of the comments in their entirety at Appendix B.

                   In the comments, the Deputy Director generally agreed with our follow-up
                   assessment of progress made and provided updates on the status of USCIS
                   efforts to implement each of the six recommendations included in our prior
                   2005 report. The Deputy Director acknowledged the work that remains to be
                   done and said that transforming USCIS business processes, coupled with
                   updating IT, remains a high priority for the bureau. The Deputy Director


     U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                             Page 21
              outlined recent USCIS actions to further its Transformation Program,
              including development of a long-term Strategic Plan and Acquisition Plan,
              contract support for process development, and continued site visits to the
              field. The Deputy Director expressed appreciation for our assessment and
              offered to provide future updates on transformation progress in each
              recommendation area.

              Specifically, the Deputy Director detailed recent USCIS actions to address our
              first recommendation, related to ongoing challenges in finalizing and
              executing the transformation strategy. The Deputy Director outlined the
              bureau’s near-term efforts to ensure more effective planning and management
              of the Transformation Program, including the completion of a Concept of
              Operations to accompany the draft Strategic Plan. Further progress is
              expected when a draft Acquisition Plan becomes available to help identify an
              approach to transformation funding. We are encouraged by the recent actions
              completed and believe that the steps outlined mark progress toward reaching a
              finalized and executable transformation strategy.

              Further, the Deputy Director highlighted goals and ongoing plans for
              addressing our second recommendation related to OCIO centralization.
              USCIS restated progress made during the past year as a number of IT
              employees were transferred to the OCIO. The Deputy Director recognized
              nonetheless that some IT employees and activities still exist outside of OCIO
              purview. USCIS remains focused on transitioning the OCIO to an enterprise-
              centric view of IT matched with enterprise standards, planning, governance
              and controls along with an effectively staffed, structured, and trained OCIO.
              We appreciate the information provided and believe that these are good steps
              toward achieving a more centralized IT operation. We look forward to
              receiving periodic updates as the Deputy Director has promised on progress in
              this area.

              The Deputy Director disagreed with our follow-up determination of limited
              OCIO involvement in business transformation activities, contrary to our third
              prior report recommendation. To counter our finding that the OCIO’s
              awareness and commitment has waned, USCIS provided additional evidence
              of a growing alignment between the Transformation Program and the CIO.
              Specifically, the Deputy Director stated that the IT office has remained
              involved over the past year, even while making the transition to a new CIO.
              Additionally, the Deputy Director described how the new CIO has played a
              vital role in the USCIS Transformation Program, including serving on the
              Leadership Team, advising on IT-related issues and planning, and establishing
              a Federal Enterprise Architecture Branch to complement TPO efforts. The
              Deputy Director outlined future plans, to strengthen such collaboration by
              collocating the OCIO and transformation program offices.

U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                        Page 22
              We acknowledge the steps that USCIS has taken to assure alignment between
              OCIO and the transformation program since the new CIO was hired in June
              2006. Indeed, our report discusses such recent improvements as related to
              enterprise architecture planning and systems design. However, during the
              course of our review, we found little evidence that the CIO’s role in business
              transformation had been clearly defined. Further, as we state in our report, the
              prior CIO who began the previous IT modernization was not involved in
              business transformation. OCIO had only one full-time representative involved
              in transformation activities: A detailee from a field location, assigned to the
              Technology Solution Team. This team had limited involvement in
              transformation from the outset, as the requirements it needed to support its
              systems design activities had not been gathered. The team ultimately lost
              resources and discontinued its work due to funding cuts. Additional OCIO
              involvement in transformation generally was limited to IT project managers
              working on related efforts, such as infrastructure upgrades and data
              integration. We recognize USCIS’ efforts since then to promote collaboration
              between its IT and business leaders. We are encouraged by the progress
              outlined by the Deputy Director and expect that the growing partnership will
              help ensure that future technologies meet the mission needs of the
              organization effectively.

              The Deputy Director sought to dispel our concern about a lack of progress
              made in process reengineering and pilot implementation, counter to our fourth
              recommendation. The Deputy Director stated that USCIS awarded a contract
              in September 2006 that emphasizes the reengineering of business processes to
              include the technological solutions that will enable USCIS to effectively meet
              performance objectives and target metrics. This effort will involve field office
              participation to ensure that processes are developed in the context for which
              they will be needed. Further, the Deputy Director said that USCIS plans to
              develop its first increment of end-to-end electronic processing by summer
              2007, starting with inter-country adoption benefit requests. The Deputy
              Director went on to clarify a statement in our draft report that $25 million
              allotted to help develop business capabilities was used solely for program
              planning activities instead. According to the Deputy Director, over half of the
              funds were applied to develop new business capabilities, with the remaining
              funds allocated for business requirements development, project management
              support, and transformation program planning. We look forward to learning
              about the results of these planning activities and the funds expended.
              Updating business processes to enable an end-to-end electronic workflow will
              be critical to manage existing and potential increases in immigration benefits
              processing workloads effectively.



U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                        Page 23
              The Deputy Director agreed with our assessment that USCIS has made
              significant progress in implementing IT infrastructure upgrades, in line with
              our fifth recommendation to replace aging hardware and software. However,
              the Deputy Director said that the bureau’s efforts in this area continue to be
              hampered by resource constraints. We believe it will be critical for USCIS to
              prioritize and determine an approach to funding IT upgrades at remaining sites
              in order to prepare for future transformation initiatives.

              Finally, in response to our follow-up assessment of user participation in
              transformation activities per our sixth recommendation, the Deputy Director
              highlighted USCIS progress in outreach to its field employees through site
              visits. During the past two months, the Deputy Director said, the TPO has
              traveled to various field locations to provide briefings and conduct focus
              groups on transformation. The TPO believes that its progress in completing
              over 25 field visits has further engaged field leadership and staff in the
              transformation program. We agree that such outreach to field sites is key and
              urge USCIS to continue to solicit input from field employees who complete
              most of the day-to-day benefits processing and therefore may have invaluable
              insights to offer.




U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                        Page 24
              Appendix A
              Scope and Methodology




              We began our follow-up audit by researching new developments and
              information related to USCIS immigration benefits processes and systems
              since our September 2005 report. Specifically, we examined proposed
              immigration reform legislation, which may result in potentially dramatic
              increases in USCIS benefits processing workloads. We reviewed recent
              Government Accountability Office (GAO) and OIG reports that discuss
              USCIS' backlog elimination program and its effort to automate immigration
              files. We also met with the prior USCIS CIO to learn about changes in the
              bureau’s IT modernization efforts and supporting organization structure. In
              line with our compliance follow-up responsibility, we evaluated documents
              that USCIS provided in December 2005 and May 2006, including updated
              action plans and milestones, on bureau activities to address our September
              2005 report recommendations. Using this information, we designed a data
              collection approach, consisting of focused interviews and documentation
              analysis, to conduct our follow-up review. We developed a series of questions
              and discussion topics to facilitate our interviews.

              Subsequently, we conducted a range of interviews at USCIS headquarters and
              field offices and gathered supporting documentation to meet our audit
              objectives. At headquarters, we interviewed senior USCIS business leaders,
              including the new Chief of Staff and Chief Financial Officer, to discuss their
              roles and responsibilities related to USCIS business and IT modernization.
              We were particularly interested in transformation planning, process
              reengineering, requirements gathering, and pilot program implementation
              activities. We collected numerous documents from these officials about
              USCIS accomplishments, current initiatives, and future plans for
              transformation.

              Further, we met with USCIS’ new CIO to discuss this official’s approach to
              managing IT across the organization, as well as ongoing plans for
              organizational restructuring. We interviewed OCIO personnel to learn about
              the office’s efforts to centralize IT personnel and upgrade and standardize IT
              hardware and software bureau-wide. OCIO managers discussed
              accomplishments in implementing the desktop upgrades, while OCIO
              employees discussed the office's involvement with transformation and IT
              investment management processes. To support their comments, these officials
              provided copies of OCIO reorganization plans, as well as documentation
              regarding IT systems, budgets, and operations.

              Additionally, we visited four USCIS field locations where we toured facilities
              and interviewed senior managers, IT specialists, and various other employees.
              We discussed the recent IT staff reorganization, local IT development
              practices, and user involvement and communications with headquarters
              concerning transformation. We gathered information input on current IT
U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                        Page 25
              Appendix A
              Scope and Methodology



              development initiatives and learned about system requirements specific to
              field offices. We sought to evaluate existing practices for managing IT in the
              field and the extent to which headquarters provides tools needed by field
              users. Where possible, we obtained reports and other materials to support the
              information they provided during the interviews.

              We conducted our review from June 2006 to August 2006 at USCIS
              headquarters in Washington, DC, and at USCIS field locations in Burlington,
              Vermont and Boston, Massachusetts. We performed our work according to
              generally accepted government auditing standards.

              The principal OIG points of contact for this audit are Frank Deffer, Assistant
              Inspector General for Information Technology Audits, and Sondra McCauley,
              Director, Information Management. Major OIG contributors to the audit are
              identified in Appendix C.




U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                        Page 26
              Appendix B
              Management Response to Draft Report




U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                        Page 27
              Appendix B
              Management Response to Draft Report




U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                        Page 28
              Appendix B
              Management Response to Draft Report




U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                        Page 29
              Appendix C
              Major Contributors to the Report




              Information Management Division

              Sondra McCauley, Director
              Kristen Evans, Audit Manager
              Steve Ressler, Auditor
              Therese Foote, Auditor




U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                          Page 30
              Appendix D
              Report Distribution



              Department of Homeland Security

              Secretary
              Deputy Secretary
              Chief of Staff
              Deputy Chief of Staff
              Executive Secretariat
              General Counsel
              Chief Information Officer
              Chief Information Security Officer
              USCIS Director
              USCIS Chief Information Officer
              USCIS Audit Liaison
              Chief Privacy Officer
              Assistant Secretary for Public Affairs
              Legislative and Intergovernmental Affairs
              DHS OIG Audit Liaison
              Assistant Secretary, for Policy

              Office of Management and Budget

              Chief, Homeland Security Branch
              DHS OIG Budget Examiner

              Congress

              Congressional Oversight and Appropriations Committees, as appropriate




U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology

                                        Page 31
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to DHS Office of
Inspector General/MAIL STOP 2600, Attention: Office of Investigations–
Hotline, 245 Murray Drive, SW, Building 410, Washington, DC 20528; fax
the complaint to (202) 254-4292; or email DHSOIGHOTLINE@dhs.gov. The
OIG seeks to protect the identity of each writer and caller.
